<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



                    DEPARTMENT OF DEFENSE APPROPRIATIONS 
                            FOR FISCAL YEAR 2015

                              ----------                              

 
                        WEDNESDAY, JUNE 11, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Reed, Shelby, and Murkowski.

                        
                         DEPARTMENT OF DEFENSE
                         Missile Defense Agency

STATEMENT OF VICE ADMIRAL JAMES D. SYRING, DIRECTOR, 
            UNITED STATES NAVY

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. The subcommittee meets this morning to 
receive testimony in the fiscal 2015 budget request for the 
Missile Defense Agency.
    I'm pleased to welcome the Director of the Missile Defense 
Agency (MDA), Vice Admiral James Syring. Thank you for 
appearing before the committee today.
    For fiscal year 2015, the President's budget requests $7.5 
billion for the Missile Defense Agency, and you're planning on 
receiving $30.1 billion from fiscal year 2016 through 2019.
    As we all know, the Department's budget plan for fiscal 
years 2016 through 2019 exceeds the spending caps put in place 
by the Budget Control Act by over $115 billion. I hope to hear 
from you today on how you would meet sequestration levels in 
future years and what this would mean for MDA's ability to 
perform its mission of keeping America safe.
    We've discussed in the past the threats the United States 
faces around the world in the area of missile proliferation and 
programs in Iran and North Korea, to name a few. As we attempt 
to address these problems with a prudent combination of 
political, economic and military tools, we rely heavily on 
MDA's capabilities for regional and homeland defense.
    Given the threats we face, it's important to get missile 
defense right. This budget request includes a number of 
proposals to mitigate problems with our fielded systems; most 
notably the Ground-Based Interceptor (GBI). These are design, 
engineering and reliability problems that were largely caused 
by the rush to field this system without proper testing. We are 
now paying dearly for some of those decisions.
    As we move forward with new major acquisition programs, we 
need to ensure that we don't let arbitrary schedules trump 
sound, fiscally responsibly acquisition practices. ``Fly before 
you buy'' makes a lot of sense to me. We simply can't afford to 
divert resources from critical new investments in science and 
technology or proven successful production programs to pay for 
things that should have been done right in the first place.
    One example, I'm concerned by the proposal to reduce 
procurement quantities of the Standard Missile interceptor. 
This missile works, it's in high demand by our Combatant 
Commanders around the world, and it's a critical element of 
regional missile defense in Europe, which the administration 
and this committee are committed to. Yet, your budget request 
reduces production by over 40 percent.

                           PREPARED STATEMENT

    We look forward to hearing your thoughts on these issues. 
We want to ensure that our fiscal year 2015 appropriation bill 
enables the Missile Defense Agency to defend and support our 
Nation and interests around the world in a successful, fiscally 
responsible manner.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    The subcommittee meets this morning to receive testimony on the 
fiscal year 2015 budget request for the Missile Defense Agency.
    I am pleased to welcome the Director of the Missile Defense Agency, 
Vice Admiral Jim Syring. Thank you for appearing before the committee 
today.
    For fiscal year 2015, the President's budget requests $7.5 billion 
for the Missile Defense Agency, and you are planning on receiving $30.1 
billion from fiscal year 2016 through 2019. As we all know, the 
Department's budget plan for fiscal years 2016 through 2019 exceeds the 
spending caps put in place by the Budget Control Act by over $115 
billion. I hope to hear more from you today on how you would meet 
sequestration levels in future years, and what this would mean for 
MDA's ability to perform its mission of keeping America safe.
    We have discussed in the past the threats the United States faces 
around the world in the area of missile proliferation, and programs in 
Iran and North Korea, to name a few. As we attempt to address these 
problems with a prudent combination of political, economic and military 
tools, we rely heavily on MDA's capabilities for regional and homeland 
defense.
    Given the threats we face, it is important that we get missile 
defense right. This budget request includes a number of proposals to 
mitigate problems with our fielded systems, most notably the Ground 
Based Interceptor. These are design, engineering and reliability 
problems that were largely caused by the rush to field this system 
without properly testing it first. We are now paying dearly for that 
decision.
    As we move forward with new major acquisition programs, we need to 
ensure that we don't let arbitrary schedules trump sound and fiscally 
responsible acquisition practices. ``Fly before you buy'' makes a lot 
of sense to me. We simply cannot afford to divert resources from 
critical new investments in science and technology or proven, 
successful production programs to pay for things that should have been 
done right in the first place.
    To give you one example, I am concerned by your proposal to reduce 
procurement quantities of the Standard Missile interceptor. This 
missile works, it is in high demand by our Combatant Commanders around 
the world, and it is a critical element of regional missile defense in 
Europe, which the administration and this committee are committed to. 
And yet your budget request reduces production by over 40 percent.
    We look forward to hearing your thoughts on these issues. We want 
to ensure that our fiscal year 2015 appropriations bill enables the 
Missile Defense Agency to defend and support our Nation and interests 
around the world in a successful and fiscally responsible manner.
    Thank you for your testimony this morning. Your full statement will 
be included in the record.

    Senator Durbin. I will have your testimony after 
acknowledging the presence of the Ranking Member of the full 
committee, Senator Richard Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you.
    Admiral, welcome. I had a nice talk with you yesterday. 
Thanks for giving me that opportunity.
    I join in welcoming you here today, along with Senator 
Durbin. I'm very appreciative of the important work that the 
Missile Defense Agency performs. It's a tremendous asset to our 
nation.
    I believe, and I think this committee will agree, that the 
Missile Defense Agency's work to invest in game changing 
technology programs is essential to defending the United 
States, our deployed troops, allies, and friends against 
adversary ballistic missiles.
    As you stated in your testimony, Admiral Syring, funding 
for MDA is essential to works, and these are your words, ``work 
with the warfighter to develop, test and field a network global 
ballistic missile defense that is flexible, survivable and 
affordable.''
    I look forward to working with you and this committee and 
the Chairman to ensure that we provide adequate funding so that 
our Nation is equipped to counter present and future ballistic 
missile defense.
    I agree with a lot of people; we live in a troubled and an 
unsettled world whether we realize it or not.
    Thank you.
    Senator Durbin. Thanks, Senator Shelby.
    Admiral, please proceed.

           SUMMARY STATEMENT OF VICE ADMIRAL JAMES D. SYRING

    Admiral Syring. I want to thank you, Chairman Durbin and 
distinguished members of the subcommittee for the opportunity 
to testify today.
    Out of our total request of $7.46 billion for the fiscal 
year 2015 missile defense program, we are requesting 
approximately $1.3 billion for homeland defense as we prepare 
to expand our GBI fleet to 44 by 2017. My highest priority 
remains a successful intercept flight test of the CE-II 
Exoatmospheric Kill Vehicle (EKV).
    In January 2013, we conducted a highly successful non-
intercept flight test and confirmed we are on the right path to 
return GMD (Ground-based Midcourse Defense) to sustain flight 
testing.
    I am confident we have fixed the problem we encountered in 
the December 2010 test and I look forward to conducting the 
intercept test FTG-06b later this month. I'm also optimistic 
we've identified the root cause, sir, of the intercept failure 
involving our first generation EKV last July when the CE-I Kill 
Vehicle failed to separate from the booster's third stage. 
We've accounted for this issue in the upcoming flight test and 
we are working towards a correction to the entire fleet before 
the end of the year.
    Instead of continuing to make year-to-year reliability 
improvements in our GBIs, in fiscal year 2015 we are requesting 
to begin the redesign and improvement of the GBI EKV. The new 
EKVs will be more producible, testable, reliable and cost 
effective and eventually replace the Kill Vehicle used in our 
current GBI inventory.
    We also begin development of a long ranged discrimination 
radar with deployment plan in 2010. The new midcourse tracking 
radar will provide persisting coverage and improved 
discrimination capabilities against threats to the homeland 
from the specific theatre.
    We will continue to improve the performance of the Aegis 
weapons system and are requesting to procure 30 Standard 
Missile Block 1B guided missiles in fiscal year 2015. We will 
request 4 year multiyear procurement authority for the 1B 
starting in fiscal year 2016.
    In addition, in fiscal year 2015 we will procure 31 
interceptors for the THAAD (Terminal High-Altitude Area 
Defense) system and fund additional AN/TPY-2 radar spares and 
an additional THAAD battery for the Army.

                           PREPARED STATEMENT

    I want to be very clear. We remain on schedule to meet the 
presidential mandate for the deployments of Phase 2 and 3 of 
the European Phase Adaptive Approach. I was just in Romania 
last week.
    With 15 flight tests planned in fiscal year 2015, we will 
continue to test elements of the system, sir, to demonstrate 
that they work before we commit to fielding.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The statement follows:]
           Prepared Statement of Vice Admiral James D. Syring
    Good morning, Chairman Durbin, Vice Chairman Cochran, distinguished 
members of the subcommittee. I appreciate this opportunity to testify 
before you today. Our current budget request of $7.459 billion for 
fiscal year 2015 will continue the development of defenses for our 
Nation, deployed forces, allies, and international partners against 
increasingly capable ballistic missiles. The fiscal year 2015 missile 
defense program will support the warfighter and needs of the Combatant 
Commanders (COCOMs) with the development and deployment of 
interceptors, sensors, and the command, control, battle management and 
communications (C2BMC) system that make up the integrated Ballistic 
Missile Defense System (BMDS). Our President's 2015 budget request 
supports needed improvements in homeland defense and continues strong 
support of regional defense initiatives. Our fiscal year 2015 program 
plans include continued investments in advanced technologies and future 
capabilities to keep pace with the increasingly complex threat.
                        ballistic missile threat
    The threat continues to grow as our potential adversaries are 
acquiring a greater number of ballistic missiles, increasing their 
range and making them more complex, survivable, reliable, and accurate. 
The missile defense mission is becoming more challenging as potential 
adversaries incorporate BMD countermeasures. Space-launch activities in 
Iran and North Korea involve multistage systems that serve to further 
the development of ballistic missile technology for longer-range 
systems, including intercontinental ballistic missile (ICBM)-applicable 
technologies and systems. As the Director for National Intelligence 
testified last year, ``Iran has demonstrated an ability to launch small 
satellites, and we grow increasingly concerned that these technical 
steps . . . provide Tehran with the means and motivation to develop 
larger space-launch vehicles and longer-range missiles, including an 
ICBM.'' Iran could develop and test an ICBM capable of reaching the 
United States by 2015. In addition to the Taepo Dong 2 space launch 
vehicle/ICBM, North Korea is developing and has paraded the KN08 road-
mobile ICBM and an intermediate-range ballistic missile (IRBM) capable 
of reaching Guam and the Aleutian Islands. Iran also has steadily 
increased its ballistic missile force, deploying next generation short- 
and medium-range ballistic missiles (SRBMs and MRBMs) with increasing 
accuracy and new submunition payloads. Iran has publicly demonstrated 
the ability to launch simultaneous salvos of multiple rockets and 
missiles. Demonstrating that it is capable of modifying currently 
deployed ballistic missile systems, Iran has flight-tested a Fateh-110 
ballistic missile called the Khalij Fars by adding a seeker to improve 
the missile's accuracy against sea-based targets. This ballistic 
missile has a range of 300 km, which means it is capable of threatening 
maritime activity throughout the Persian Gulf and Strait of Hormuz.
                       support for the warfighter
    Our overriding goal is to provide support to the warfighter. With 
this budget we will maintain our commitment to build out homeland 
defenses to 44 Ground Based Interceptors (GBIs), pending a successful 
return to intercept this summer, and focus on Ground-based Midcourse 
Defense (GMD) system reliability and GBI performance. We will also 
maintain our commitment to deploy Phases 2 and 3 of the European Phased 
Adaptive Approach (EPAA). We are continuing efforts to improve the 
performance of the Aegis Weapons System and deliver Standard Missile 
(SM-3) Block IB guided missiles. We will also deploy a second forward-
based X-band AN/TPY-2 radar in Japan, improving homeland and regional 
defense capabilities and increasing our global operational AN/TPY-2 
radar posture, and build and improve the C2BMC infrastructure at 
fielded sites. We plan to procure interceptors for Terminal High 
Altitude Area Defense (THAAD) and, pursuant to our agreement with the 
Army, fund additional AN/TPY-2 spares and an additional THAAD Battery.
    Last year we conducted or participated in over 17 multi-event 
exercises and wargames, which are critically important to the 
warfighter and the intensive engineering efforts across the Agency. MDA 
also worked collaboratively with Combatant Commanders, Office of the 
Secretary of Defense (OSD) and the Services to complete a strategy and 
roadmap providing a series of near-, mid-, and far-term architecture 
options for the BMDS that are the basis for program planning for the 
rest of this decade. In response to the continued fielding by U.S. 
adversaries of air, missile, and rocket capabilities, in May 2013 MDA 
assumed the responsibility of Technical Authority for Integrated Air 
and Missile Defense (IAMD), and as such will lead the Department's 
joint IAMD engineering and integration efforts, including interface 
definition and control as well as technical requirements allocation.
    Finally, we continue to work closely with the Director, Operational 
Test & Evaluation (DOT&E) and with independent testers and the 
Services. From October 2012 to the present, we have executed 10 high 
profile flight tests, 14 if you include our involvement with and 
contributions to Israeli flight tests. The highlight was Flight Test 
Operational-01 (FTO-01), the historic and unparalleled operational test 
of our regional layered ballistic missile defenses this past September, 
which involved THAAD and Aegis BMD, ground- and sea-based forward 
deployed sensors, and C2BMC. The two targets were launched on 
operationally realistic trajectories towards a defended area near the 
Reagan Test Site in the Pacific Ocean. This was a highly successful 
operational test involving MDA, the Operational Test Agency, Joint 
Functional Component Command for Integrated Missile Defense, and U.S. 
Pacific Command, as well as U.S. Army Soldiers from the Alpha Battery, 
2nd Air Defense Artillery THAAD, U.S. Navy Sailors aboard the USS 
Decatur and British sailors aboard the HMS Daring, and Airmen from the 
613th Air and Operations Center. Similar to the Flight Test Integrated-
01 test conducted in October 2012, FTO-01 provided the warfighters 
confidence in the execution of their integrated air and missile defense 
plans and the opportunity to refine operational doctrine and tactics, 
techniques and procedures.
    In fiscal year 2015 we have 15 flight tests in the Integrated 
Master Test Plan. As the BMDS matures, we are continuing to increase 
the complexity in our flight test program by: conducting more system-
level operational tests; increasing the number of BMDS assets in those 
tests; increasing the numbers, types and ranges of the threat 
representative targets we use; conducting more simultaneous launches; 
and replicating potential wartime scenarios to realistically exercise 
warfighting chain of command to evaluate command and control concepts 
of operation and tactics, techniques and procedures. We also have 
system-level ground tests that combine the warfighter chain of command 
with the developmental system and test under varying conditions to 
improve confidence in the system being deployed to Combatant Commands. 
We are entering a period of unprecedented complexity and increased 
testing tempo based on that complexity. Our flight tests will also 
involve an increasingly stressful set of threat representative targets 
as well as longer range interceptors for our regional capabilities. 
Over the coming years, U.S. Government stakeholders--to include 
Soldiers, Sailors, Marines, and Airmen--and allies will have a larger 
role and impact in our test program than ever before.
                            homeland defense
    MDA's highest near-term priority remains the successful GMD 
intercept flight test of the newest GBI Exoatmospheric Kill Vehicle 
(EKV)--the Capability Enhancement (CE)-II EKV. Based on our analysis of 
the data from the successful January 2013 non-intercept controlled 
flight test of the CE-II GBI (CTV-01), we plan to conduct FTG-06b, an 
intercept flight test, this summer. CTV-01 demonstrated the successful 
dampening of the vibration environments that affected the navigation 
system and resulted in the failure of the FTG-06a mission conducted in 
December 2010. FTG-06b will demonstrate the ability of the CE-II EKV to 
discriminate and intercept a lethal object from a representative ICBM 
target scene. An increase in the number of GBIs in the fleet assumes a 
successful return to intercept of the CE-II EKV.
    Last July, with FTG-07, we conducted an intercept flight test of 
the upgraded CE-I, or first generation, EKV. We made numerous 
improvements to the CE-I fleet through upgrades since the last 
successful CE-I flight test in 2008. In FTG-07 the EKV did not 
intercept the target because the kill vehicle on the GBI did not 
separate from the booster's third stage. The failure investigation is 
progressing toward a root cause. Once the investigation is concluded, 
we will take steps to make any fixes to the fleet that need to be made 
for both the CE-I and CE-II EKVs.
    Today, 30 operational GBIs protect the United States against a 
limited ICBM attack from current regional threats, such as North Korea 
and Iran. Last year we began refurbishment of Missile Field 1 at Fort 
Greely, Alaska (FGA) to develop silo capacity to support delivery of an 
additional 14 GBIs, continued emplacing GBIs in Missile Field 2 (MF 2), 
and continued conducting GBI component testing and refurbishing 
currently deployed GBIs to test and improve their reliability. We are 
requesting approximately $1.3 billion in fiscal year 2015 for homeland 
defenses. We remain committed to a ``fly before you buy'' acquisition 
approach. Pending a successful outcome of the GMD intercept flight test 
this summer, we will resume taking delivery of GBIs and emplace them in 
MF 2 and MF 1 as we progress towards 44 by the end of fiscal year 2017. 
Beginning in fiscal year 2016, we will acquire replacement GBIs to 
support GMD operations, testing, and spares, pending the outcome of 
flight testing.
    Construction of the GBI In-Flight Interceptor Communication System 
(IFICS) Data Terminal (IDT) at Fort Drum, New York is proceeding on 
schedule. Once it is operational in late-2015, the east coast IDT will 
enable communication with GBIs launched from Fort Greely, Alaska and 
Vandenberg Air Force Base in California over longer distances and 
improve defenses for the eastern United States by increasing system 
performance in specific engagement scenarios.
    We currently operate a forward-based X-band radar, the AN/TPY-2 
radar, in Shariki, Japan, which is in the northern part of that 
country. In September 2012 the Secretary of Defense directed the 
deployment of a second AN/TPY-2 X-band radar in Japan to provide 
improved tracking coverage for launches out of North Korea. Working 
with our Japanese partners, we expect to complete the deployment of the 
second AN/TPY-2 radar in Kyogamisaki in southern Japan by the end of 
this calendar year. We will also deploy a new C2BMC capability which 
will enhance the overall performance of the radars when operating in a 
mutually supporting dual radar mode.
    We will take additional steps to keep pace with the threats to the 
U.S. homeland. We have requested $99.5 million in fiscal year 2015 to 
redesign and improve the GBI EKV. The redesigned EKV will be built with 
a modular, open architecture and designed with common interfaces and 
standards, making upgrades easier and broadening our vendor and 
supplier base. The new EKVs will improve reliability and be more 
producible, testable, reliable, and cost-effective and eventually will 
replace the kill vehicle on our current GBI fleet. We are currently 
assessing concepts, acquisition options, and timelines to test and 
field the redesigned EKV. Our goal is to begin flight testing the 
redesigned EKV in fiscal year 2018. We also request $79.5 million, 
which includes $29 million in MILCON funding for planning and design, 
to begin development of a Long Range Discrimination Radar (LRDR), with 
deployment planned in 2020. The new long-range, mid-course tracking 
radar will provide persistent coverage and improve discrimination 
capabilities against threats to the homeland from the Pacific theater. 
This new radar also will give more geographic flexibility to deploy the 
Sea-Based X-band (SBX) radar for contingency and test use.
    MDA requests $122 million in fiscal year 2015 to support the 
Discrimination Improvements for Homeland Defense (DIHD) efforts. The 
goal of this effort is to develop and field an integrated set of 
capabilities to improve BMDS reliability, lethality, and 
discrimination. The end result will be a deployed future BMDS 
architecture more capable of discriminating and destroying a reentry 
vehicle. Our plans in this area will support a near-term DIHD 
capability (2016) and a DIHD capability fielding in 2020.
    We are requesting $64 million in fiscal year 2015 for continued 
Sea-Based X-band (SBX) radar operations. In collaboration with the 
Services, Joint Staff, STRATCOM and the COCOMs, we maintained the SBX 
radar in Limited Test Support Status, where the radar continues to 
support the BMDS test program and remains available for contingency 
deployment under the operational command of PACOM. In 2013 SBX 
supported real world operations, with 49 days at-sea, and the FTG-07 
GMD test with a total of 110 days at-sea and demonstrated an autonomous 
acquisition capability.
    We are also examining locations for a possible additional CONUS 
interceptor site. The current GBI sites at Fort Greely, Alaska and 
Vandenberg AFB, California provide capability necessary to protect the 
homeland. While there has been no decision by the Department to move 
forward with an additional CONUS interceptor site, such a site would 
add battle space and interceptor capacity should it be deemed necessary 
to proceed with deployment. Our CONUS Interceptor Site study determined 
the following sites are viable candidates and they are to be included 
in the Environmental Impact Statement: Fort Drum, New York; Naval Air 
Station Portsmouth SERE Training Area, Rangley, Maine; Ravenna Training 
and Logistics Site, Ohio; and Fort Custer Combined Training Center, 
Michigan. The Environmental Impact Statement, which will take 
approximately 24 months to complete, will assess environmental impacts 
at each of the sites, to include potential impacts to land use, water 
resources, air quality, transportation, socioeconomics and other 
factors established by the National Environmental Policy Act.
    For fiscal year 2015 we are requesting approximately $38.6 million 
for our network of strategic radars. We will continue missile defense 
upgrades of the Early Warning Radars in Clear, Alaska and Cape Cod, 
Massachusetts. We expect to complete the Clear radar upgrade in 2017 
and the Cape Cod upgrade in 2018. Last year MDA worked with the Air 
Force to begin upgrading the Early Warning Radar (EWR) at Clear, Alaska 
to give it a missile defense capability, providing improved ballistic 
missile defense sensor coverage over the continental United States and 
reducing sustainment and operating costs. We also transferred 
sustainment responsibility for the Beale (California), Fylingdales 
(United Kingdom), and Thule (Greenland) Upgraded Early Warning Radars 
back to the United States Air Force.
                           regional defenses
    Deployment of regional defenses to protect our deployed forces, 
allies and international partners remains one of our top priorities. 
Our fiscal year 2015 budget request funds the continued development and 
deployment of defenses against SRBMs, MRBMs, and IRBMs in support of 
Combatant Commanders' near-term and future priorities. MDA will 
continue to focus on threats from the Asia-Pacific and Middle East 
regions as we continue to support the European Phased Adaptive Approach 
to protect our deployed forces and our allies.
Terminal High Altitude Area Defense
    In fiscal year 2013 MDA delivered 37 THAAD Interceptors and 
expended two in flight tests, for a total of 84 delivered to Army war 
stock. We also delivered hardware for fielding of the third THAAD 
battery: 2 Tactical Station Groups, 6 Launchers, and a set of Peculiar 
Support Equipment. Training of the soldiers who will operate the third 
THAAD battery has begun and we expect it to be completed in fiscal year 
2015. This year we expect to deliver the fourth THAAD battery. In 
collaboration with the Services, Joint Staff, STRATCOM and the COCOMs, 
we achieved first operational deployment of the THAAD capability for 
the defense of Guam. In recent tests we demonstrated THAAD's ability to 
intercept an MRBM as part of an integrated operational test with Aegis 
BMD (FTO-01), the second intercept of this class of target since FTI-
01. THAAD has put together a remarkable record of success, successfully 
intercepting 11 out of 11 targets with the operationally configured 
interceptor.
    For fiscal year 2015, MDA is requesting $464 million for THAAD 
procurement, which includes the purchase of 31 THAAD interceptors. We 
also are requesting $300 million in RDT&E funding in fiscal year 2015 
and $76 million for THAAD operations and maintenance. We will continue 
to enhance THAAD's ability to operate through post-intercept debris, 
enable launch of THAAD's interceptors using sensor data provided by 
other BMDS sensors, and maintain capability against current and 
evolving threats. THAAD will conduct two flight tests in fiscal year 
2015. In FTT-18 THAAD will demonstrate an intercept of a separating 
IRBM target using the THAAD radar, launcher, fire control and 
communication, interceptor closed loop operations, and engagement 
functions. In FTO-02 THAAD will engage a SRBM with associated objects 
and demonstrate advanced radar algorithms.
Aegis Ballistic Missile Defense
    Last year MDA completed six BMD Weapons System installations on 
Aegis ships: two Aegis BMD 3.6; three Aegis BMD 4.0; and one Aegis BMD 
5.0 (USS John Paul Jones) in conjunction with the Navy's Aegis Baseline 
9 installation. The USS John Paul Jones will replace the USS Lake Erie 
as the BMD deployable test ship to support MDA and Navy testing of 
Integrated Air and Missile Defense capabilities. We now have a total of 
30 BMD capable Aegis ships in the Fleet. In 2013 we delivered 10 SM-3 
Block IAs and 16 SM-3 Block IBs. By the end of 2015, over 65 SM-3 Block 
IBs will be delivered.
    We are requesting $929 million in RDT&E funding in fiscal year 2015 
to continue development, testing, and installation of Aegis BMD 
capabilities to defeat longer range and more sophisticated ballistic 
missiles launched in larger raid sizes. We request $435 million in 
fiscal year 2015 for Aegis BMD procurement, which includes $348 million 
for 30 SM-3 Block IB guided missiles and $12 million for operations and 
maintenance of SM-3 Block IAs. In response to the Combatant Commanders' 
demand for more BMD ships with the latest tested capability, Navy and 
MDA have incorporated Aegis BMD into the Navy's Aegis DDG Modernization 
Program and new construction DDGs. We will continue upgrading the 
capability of existing BMD ships and integrating new and modernized 
ships to the BMD fleet, with a planned operational availability of 43 
Aegis BMD ships in fiscal year 2019. MDA coordinates BMD upgrades and 
installs with the Navy, and this plan will adjust if needed based on 
the Navy's new construction, Aegis modernization, and availability 
schedules. The homeport transfer of four Aegis BMD ships to Rota, Spain 
began this past February with the USS Donald Cook. Another Aegis BMD 
ship, USS Ross is scheduled to transfer later this year, and the 
remaining two Aegis BMD ships will transfer in 2015.
    With the Japan Ministry of Defense, we completed multiple SM-3 
Block IIA component Cooperative Development Project Critical Design 
Reviews, including: Staging Assembly, Steering Control Section, 
Guidance System, Third Stage Rocket Motor, Sensors, Kinetic Warhead 
Guidance Electronics Unit Assembly, Divert and Attitude Control System, 
and Kinetic Warhead, culminating with an overall missile system 
Critical Design Review, in October 2013. Also in October, the SM-3 
Block IIA completed Propulsion Test Vehicle-01 in which the missile and 
new composite canister both demonstrated successful and safe ignition 
and egress from the vertical launching system.
    Last year was a significant year for Aegis BMD testing, with five 
for five successful intercept tests and successful transmission of Long 
Range Surveillance and Track data through C2BMC to the GMD system in 
FTG-07. FTM-20 (February 2013) demonstrated the ability of the Aegis 
BMD 4.0 Weapon System to Launch on Remote using data from the Space 
Tracking and Surveillance System (STSS) demonstrator satellites. FTM-20 
employed an SM-3 Block IA against a unitary medium-range target. High 
quality infrared fire control data from STSS was provided through 
C2BMC. C2BMC generated very high quality fire control quality data and 
passed the track data over operational communications links to the 
firing Aegis ship to conduct a launch on remote engagement. This 
complex test proved the value of an integrated C2 and sensor network 
and the use of space-based sensors to expand the BMD battle space. FTM-
19 (May 2013) supported the development and assessment of the Aegis BMD 
4.0 Weapon System and the SM-3 Block IB prior to an fiscal year 2014 
full-rate production decision. A second Aegis BMD ship successfully 
acquired the target and conducted a simulated engagement using space-
based sensor data.
    In a span of 23 days, Aegis BMD was a principal player in three 
major operational flight tests: FTO-01, FTM-21 and FTM-22, which all 
achieved successful intercepts. FTM-21 (September 2013) and FTM-22 
(October 2013) fired SM-3 Block IBs to validate operational 
effectiveness and suitability of the Aegis BMD 4.0 Weapon System and 
the SM-3 Block IB. FTM-22 was our fifth consecutive successful 
intercept mission using the 4.0 Weapons System and SM-3 Block IB and an 
important milestone for Phase 2 of the EPAA. FTM-21 and FTM-22 also 
completed Director Operational Test and Evaluation Initial Operational 
Test and Evaluation flight testing requirements for the 4.0 Weapons 
System and the SM-3 Block IB.
    To complete Initial Operational Test and Evaluation requirements 
for the 4.0 weapons system, we also conducted a tracking exercise, FTX-
18, over the Atlantic Ocean in January 2014, which confirmed the 
capability of the 4.0 weapons system to track and engage a raid of 
three ballistic missile targets with simulated SM-3 Block IBs. In this 
event, multiple Aegis BMD baselines participated, yielding comparative 
raid performance data, including the Aegis Ashore Romania deckhouse at 
Lockheed Martin in Moorestown, New Jersey. The Aegis Ashore system will 
be deployed to Romania later this year.
    We also continue development of a Sea Based Terminal capability to 
provide protection of maritime forces against advanced anti-ship 
ballistic missiles and increased layered defense for forces ashore. 
Using an incremental development approach, we are incorporating BMD 
capability into the Navy's Baseline 9 architecture, to include terminal 
defense with the SM-6 guided missile and the BMD 5.0 weapon system. In 
2013, we completed the initial design phase and initiated software 
development for missile and weapon system modifications. We plan to 
test and certify the first increment of Sea Based Terminal capability 
in 2015. We also finalized the requirements for the second increment of 
Sea Based Terminal capability, scheduled to certify in 2018.
    The fiscal year 2015 Aegis BMD flight test program will include 
almost all of the Standard Missile variants, with firings of SM-3 Block 
IBs from ships as well as the PMRF Aegis Ashore Missile Defense Test 
Center, execution of raid scenarios with engagements in both Anti-Air 
Warfare and BMD warfare areas, Launch on Remote for long-range 
engagements, developmental Controlled Test Vehicle firings of the SM-3 
Block IIA missile, and tracking exercises for the Sea Based Terminal 
weapon system configuration.
European Phased Adaptive Approach
    We will continue to support the EPAA to provide coverage of 
European NATO territory from Iranian ballistic missile threats by 
investing resources for EPAA development, testing and deployment. Phase 
1, which provides coverage of NATO territory in Europe with the 
deployment of Aegis BMD 3.6 ships with SM-3 IAs and a SPY-1 radar in 
the Mediterranean, the AN/TPY-2 radar (Forward Based Mode) to U.S. 
European Command (EUCOM) in Turkey, and the C2BMC Spiral 6.4 system at 
Ramstein AFB in Germany, has been operational since the end of 2011.
    Our goal in EPAA Phase 2 is to provide robust capability against 
SRBMs and MRBMs. The architecture includes the deployment of the Aegis 
BMD 4.0 and 5.0 weapon systems with SM-3 Block IBs at an Aegis Ashore 
site in Romania and at sea. A formal ground-breaking ceremony for the 
Aegis Ashore site took place in Deveselu, Romania in October 2013. The 
start of construction of the Aegis Ashore site in Deveselu, Romania 
this year involves the delivery of the deckhouse from Moorestown, New 
Jersey to Romania. The site will be integrated into the EUCOM command 
and control network, tested and operational by December 2015. MDA 
requests $123 million in fiscal year 2015 to continue development of 
the Aegis Ashore sites in Romania and Poland. We also request $226 
million in fiscal year 2015 for the continued procurement of equipment 
for Aegis Ashore in Poland.
    Four months after disassembly and transport of the Aegis Ashore 
equipment to the Pacific Missile Range Facility (PMRF) began, an Aegis 
Light Off ceremony was held on 6 December, 2013 to commemorate the 
first time the Aegis Combat System was powered on, with Sailors manning 
the consoles and the system brought on-line at the PMRF deck house 
facility. Last month we conducted the first test, a controlled test 
vehicle test, from Aegis Ashore test facility at PMRF, successfully 
firing the SM-3 IB against a simulated target. We plan to conduct 
additional flight tests at this facility in 2015.
    Deployment of Phase 3 will enhance and expand protection for 
European NATO countries and U.S. forces through the region from MRBMs 
and IRBMs from the Middle East. In support of EPAA Phase 3, the SM-3 
Block IIA, which we are co-developing with the Japanese government, and 
an upgraded version of the Aegis Weapons System are on schedule to be 
available for deployment in 2018 at Aegis Ashore sites in Romania and 
Poland, and at sea. MDA requests $264 million in RDT&E funding in 
fiscal year 2015 to continue the bilateral, cooperative effort. The 
upgraded Aegis Weapons System and C2BMC system with engage on remote 
AN/TPY-2 radar (forward based mode) capability combined with the 
faster, longer reaching SM-3 IIA will expand Aegis BMD battle space to 
counter more sophisticated threats and will extend coverage to NATO 
allies in Europe threatened by longer range ballistic missiles.
    Working closely with Navy, we will deliver the upgraded 5.1 Aegis 
BMD Weapons System as a part of the Navy's Baseline 9 architecture on 
ships for deployment worldwide in 2018 to support Combatant Commanders 
requirements to counter an expanded threat set. This past year we 
continued development of the Aegis BMD 5.1 fire control system.
Command, Control, Battle Management, and Communications and Sensors
    In 2013 we continued to support warfighter operations of the EUCOM 
BMDS capability for regional defense. In partnership with the Combatant 
Commands, we maintain the capability to engage multiple simultaneous 
threat attacks in the region. As the foundation of BMDS, the MDA C2BMC 
team supported the warfighter in real world operations across multiple 
Areas of Responsibility, which included deployments to the Middle East, 
Turkey, and Kwajalein. Last year we fielded software upgrades to U.S. 
Northern Command (NORTHCOM), U.S. Strategic Command (STRATCOM), U.S. 
Pacific Command (PACOM) and Central Command (CENTCOM) and installed 
Spiral 6.4 MR-2 at PACOM, NORTHCOM, and STRATCOM. This year we 
completed software upgrades to CENTCOM and EUCOM. We also delivered the 
Distributed Training System to CENTCOM for Air and Missile Defense 
Exercise 13-2.
    For the first time, in 2013, we conducted a flight test with 
successful debris mitigation (FTO-01) and also generated fire control 
quality track data from space sensors for a live fire Launch-on-Remote 
Aegis BMD 4.0 Weapons system and SM-3 Block IA engagement (FTM-20). In 
addition to continuing the enhancement of global BMD survivable 
communications and support for operations and sustainment of C2BMC at 
fielded sites, in fiscal year 2015 we will integrate Space Based 
Infrared System Increment 2 capabilities into C2BMC to support cueing 
of BMD sensors worldwide. We will also improve sensor data integration 
and battle management in C2BMC to support Aegis BMD cueing and launch-
on and engage-on remote capability.
    In support of homeland and regional defense, we continued to 
sustain AN/TPY-2 operations and supported the deployment of additional 
AN/TPY-2 radars and the C2BMC infrastructure. For the second AN/TPY-2 
radar deployment to Japan, we identified candidate sites, conducted 
site surveys, selected sites, obtained agreements with the host nation, 
and initiated site design efforts. We deployed the AN/TPY-2 (Terminal 
Mode) as part of a THAAD battery in the PACOM Area of Responsibility. 
Last year we relocated the AN/TPY-2 radar in CENTCOM to a permanent 
location. Additionally, we accepted the AN/TPY-2 radar Number 8 and 
provided it to the 3rd THAAD Battery; awarded a production contract for 
AN/TPY-2 Number 12; awarded a production contract for an additional 
Prime Power Unit; and awarded a contract for AN/TPY-2 spares.
    We request $393 million in fiscal year 2015 to develop and deploy 
BMDS sensors (includes Long Range Discrimination Radar), and $183 
million to operate and sustain the nine AN/TPY-2 radars and support the 
UEWRs and Cobra Dane radar. We request $444 million in fiscal year 2015 
to operate and sustain C2BMC at fielded sites and continue C2BMC 
program spiral development of software and engineering to incorporate 
enhanced C2BMC capability into the battle management architecture and 
promote further interoperability among the BMDS elements, incorporate 
boost phase tracking, and improve system-level correlation and 
tracking. We will also continue communications support for the AN/TPY-2 
radars and C2BMC upgrades. We request $31 million for continued 
operation of the Space Tracking and Surveillance System and Near-Field 
InfraRed (NFIRE) satellite system in fiscal year 2015. We continue to 
operate the two STSS-D satellites to conduct cooperative tests with 
other BMDS elements and demonstrate the capability of the satellites to 
cue and track against targets of opportunity to provide high precision, 
real-time tracking of missiles and midcourse objects that enable 
closing the fire control loops with BMDS interceptors. We also continue 
to operate the NFIRE satellite, which has the capability to collect 
near-field phenomenology data for use in developing plume to hard-body 
handover algorithms for boost phase interceptor programs.
                      developing new capabilities
    We are developing fiscally sustainable advanced technology that can 
be integrated into the BMDS to adapt to threat changes. Our investments 
are focused on technology that brings upgradeable capability to the 
warfighter. Our advanced technology investments are determined by 
systems engineering, which permits us to evaluate and determine which 
emerging technical solutions will best address gaps in the BMDS and 
enhance its overall capability and performance. The goal of our 
technology investment strategy is to deploy a future BMDS architecture 
more capable of discriminating and killing reentry vehicles with a high 
degree of confidence, allowing the warfighter to dramatically improve 
shot doctrine. One of our greatest challenges is the ability to bring 
multiple sensor phenomenology (i.e., reflective and thermal properties 
of the missile) into the missile defense architecture. Relying purely 
on terrestrial radar for precision tracking and discrimination of the 
threat is a potential weakness our enemy could exploit in the future. 
Adding persistent electro-optical sensors to our architecture is a high 
payoff solution for this gap.
    MDA requests $45 million in fiscal year 2015 for Discrimination 
Sensor Technology. We will integrate advanced sensors on existing 
unmanned aerial vehicles and demonstrate their ability to create a 
precision track that shooters can use to target their interceptors 
quickly and accurately. We will test the first precision track sensors 
at PMRF this fall. In parallel, we will begin integration and ground 
test of an advanced sensor upgrade to these precision track sensors 
with follow-on flight testing in fiscal year 2016. MDA's Discrimination 
Sensor Technology development and test plan is a cost-effective, 
stepping stone to MDA's long-term goal of persistent discrimination 
coverage from a space platform.
    Additionally, Air Force Space Command (AFSPC) and MDA are 
collaborating on future space sensor architecture studies and sensor 
performance assessments across a broad set of joint mission areas and 
on Analyses of Alternatives (AoA) studies with threat definition, 
technical evaluations, and cost analysis support. MDA is supporting 
AFSPC in its review of concepts that will inform an AoA for the future 
of protected military satellite communications and overhead persistent 
infrared systems. As an example, MDA is exploring the potential of 
BMDS-focused space sensors that also provide data contributing to Air 
Force missions such as Space Situational Awareness.
    MDA requests $14 million in Weapons Technology in fiscal year 2015 
to combine the knowledge gained from our Discrimination Sensor 
Technology effort with our high-power directed energy program to build 
the foundation for the next-generation laser system capable of 
addressing advanced threats and raids at a much lower cost than 
existing missile interceptors. We are pursuing a unique set of laser 
technology to execute missile defense missions from high-altitude, low-
mach airborne platforms operating in the clear, low turbulence 
stratosphere. We have been developing two promising solid-state lasers: 
one at Lawrence Livermore National Laboratory and the other at the 
Massachusetts Institute of Technology's Lincoln Laboratory 
collaboratively with the Defense Advanced Research Projects Agency 
(DARPA). Both lasers achieved record power levels within the last year. 
MDA will continue high energy efficient laser technology development 
with the goal of scaling to power levels required for a broad spectrum 
of speed of light missile defense missions. This year, we are working 
with several aircraft prime contractors defining concepts for 
integrating a multi-kW class laser into a mid-altitude, unmanned aerial 
vehicle. A laser test platform addresses a broad spectrum of mission 
applications and we will continue our collaboration with our service 
partners, the Air Force Research Laboratory, and DARPA for joint 
development and test opportunities.
    MDA requests $26 million in fiscal year 2015 for the Common Kill 
Vehicle (CKV) Technology effort. MDA's strategy is to achieve as much 
commonality among future GMD kill vehicles and other future kill 
vehicles for Aegis BMD and THAAD. In fiscal year 2014 this CKV 
technology effort will help establish the requirements foundation for 
the redesigned GMD EKV, which we are now planning as the first phase 
(Phase I) of our overall kill vehicle development strategy. Our fiscal 
year 2014 joint government and industry concept definition effort will 
also assess the ability of industry to meet those requirements. In 
follow-on CKV efforts, or Phase II, we will make investments that 
reduce the costs of production and weapon system operations through new 
kill vehicle architectures and scalable technology that improves the 
effectiveness and performance of our interceptor fleet against an 
evolving threat. Our investments in large format focal plane arrays, 
smaller inertial measurement units and high performance propulsion 
components as well as new kill vehicle architectures are key enablers. 
This technology development allows us to engage a more numerous and 
increasingly more complex threat, eventually establishing the 
technology foundation for killing multiple lethal objects from a single 
SM-3 or GBI.
    MDA requests $16 million in fiscal year 2015 for the Advanced 
Research area which conducts leading-edge research and development with 
small businesses, universities, and international partners to create 
and advance future missile defense capability. This effort includes 
managing the Small Business Innovation Research and Technology 
Applications programs to help MDA-funded small businesses to transition 
their technology to missile defense applications. MDA is also seeking 
to leverage the creativity of our Nation's universities by sponsoring 
academic research focused on developing breakthrough capabilities for 
missile defense.
    MDA requests $9 million in fiscal year 2015 for the Advanced 
Concepts & Performance Assessment effort, which delivers independent 
assessments of government, university, and industry technology concepts 
that, along with systems engineering requirements, support acquisition 
strategy decisions and define our technology focus areas. This effort 
has greatly improved our assessment of advanced BMD technologies to 
address evolving threats for the warfighter. We work directly with 
universities, federally Funded Research and Development Centers, 
University Affiliated Research Centers and innovative small businesses 
to develop cutting edge data collection, modeling techniques, hardware-
in-the-loop, and high performance computing platforms to speed the 
assessment of innovative technology concepts.
                       international cooperation
    MDA is engaged with over twenty countries and international 
organizations, such as NATO. Our major international efforts reflect 
the Department's goals in the Asia-Pacific, Middle East, and Europe: 
building partner BMD capacity, supporting the strategic shift to Asia-
Pacific, and executing EPAA deployments.
Building Partner BMD Capability
    Since I last testified before the committee, we had several 
successes in our cooperative development programs with our Israeli 
partners. Through our cooperative efforts, Israel is developing a 
layered and robust BMD capability. In November 2013 the Israel Missile 
Defense Organization (IMDO) and MDA achieved a second successful 
intercept using the David's Sling Weapon System. This past January we 
successfully conducted the second fly-out of the Arrow-3 upper tier 
interceptor. These programmatic milestones provide confidence in future 
Israeli capabilities to defeat the evolving ballistic missile threat in 
the Middle East. Another recent and significant accomplishment for the 
Department is the precedent-setting international agreement with Israel 
regarding coproduction of the Iron Dome missile defense system that was 
signed on March 5, 2014. The agreement supports increasing U.S. 
industry co-production of Iron Dome components.
    Our largest co-development effort is with Japan on the SM-3 Block 
IIA interceptor. Japan has committed significant funding for their part 
of this co-development project. Japanese and U.S. components will be 
fully integrated and flight tested in the coming years. The Japanese 
dedication to this program ensures we will remain on track to deliver 
SM-3 Block IIA in support of the EPAA Phase 3 in the 2018 timeframe.
    After spending a year establishing processes, procedures, and an 
information technology infrastructure, the Defense Security Cooperation 
Agency designated MDA a Foreign Military Sales (FMS) Implementing 
Agency in February 2012 for the THAAD missile defense system and the 
AN/TPY-2 radar. MDA is currently executing one FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. We are actively engaged with several nations, 
particularly those in the Gulf region, to provide program information 
and pricing and cost data that may inform future decisions to procure 
THAAD as an upper tier missile defense capability.
Supporting the Strategic Shift to the Asia-Pacific
    As I have already stated, along with the cooperative efforts on the 
SM-3 Block IIA, the United States and Japan are working together to 
support the deployment of the second U.S. forward-based AN/TPY-2 radar. 
Our Japanese partners should be commended for their efforts in 
supporting this deployment to the Japan Air Self-Defense Force (JASDF) 
base in Kyogamisaki in southern Japan. This radar will enhance both 
regional BMD capability and improve defense of the U.S. homeland.
    MDA also supported the deployment of a THAAD missile defense system 
to Guam for the defense of U.S. deployed forces in the region. This is 
our first long-term deployment of a THAAD battery.
Executing EPAA Deployments
    Last October MDA and other Department leaders participated in a 
groundbreaking ceremony for the Aegis Ashore site in Romania. Site 
preparation work has started, and we are on schedule with military 
construction activities demonstrating real steps to deliver EPAA Phase 
2 in the 2015 timeframe.
    In addition to programmatic planning and deployment activities, MDA 
is also supporting EUCOM efforts to ensure the necessary Implementing 
Arrangements are in place to support EPAA fielding timelines. In the 
near-term, this means coordinating on and, where possible, streamlining 
the construction, site activation, and equipment acceptance processes 
in Romania. We are also laying the groundwork for these efforts in 
Poland. Again, all activities are on track to support the stated EPAA 
timelines.
    We are also working through NATO to ensure U.S. C2BMC and NATO 
command and control networks are fully interoperable. The United States 
and NATO test existing and future ballistic missile defense 
capabilities through a series of ongoing test campaigns in order to 
evaluate current capabilities and reduce risk for future development.
    MDA will continue to engage NATO and regional Allies in support of 
U.S. national security strategy through international cooperation in 
missile defense. For instance, the United States is working with NATO 
on a study to identify cooperative opportunities for European nations 
to develop and procure missile defense capabilities to complement the 
U.S. EPAA contribution to NATO BMD.
    MDA remains engaged and committed to expanding work with our 
international partners, to include conducting joint analyses to support 
partner missile defense acquisition requirements, cooperative research 
and development projects, co-development, deployments, FMS, and co-
production. It is an honor to work with dedicated international 
partners on activities that benefit both U.S. and international 
contributions to missile defense architectures.
                             cybersecurity
    MDA has been working diligently to enhance the cybersecurity 
posture of missile defense networks and improve the protection of 
ballistic missile defense information. MDA has developed new policies, 
partnered extensively with industry and other Department of Defense 
organizations, and has continuously increased investments in 
cybersecurity to ensure our networks and information remain secure 
against cyber attacks.
    I have coordinated policy Memoranda with the DOD Chief Information 
Officer's office and the Under Secretary of Defense for Acquisition, 
Technology, and Logistics and signed MDA Policy Memoranda on ``Securing 
Ballistic Missile Defense Information on Government and Non-Government 
Networks and Systems.'' These require MDA program executives, program 
managers, contracting officials, and contractors to follow existing 
guidelines and implement new cybersecurity measures. We published MDA 
Manual titled: ``Procedures for Protection of Critical Program 
Information and Mission-Critical Functions and Components within the 
Missile Defense Agency.'' We conducted a cybersecurity industry day 
titled: ``The Emerging Role of Cybersecurity in Missile Defense Agency 
Acquisitions.'' This served to inform MDA industry partners of new 
cybersecurity requirements and threats and elicited feedback from 
industry representatives on how they can meet the new cybersecurity 
requirements. MDA also expanded a partnership with DOT&E to test and 
experiment with cybersecurity on MDA systems. This partnership 
leverages DOT&E resources and teams MDA with special cyber expertise 
and extensive knowledge of current threats.
    The MDA Computer Emergency Response Team (CERT) performs continuous 
monitoring of MDA government information systems to protect and defend 
the confidentiality, integrity and availability of MDA networks and 
data. MDA is enhancing the established integrated security 
architecture, aligned to the Defense Enterprise Security Architecture 
that constantly improves methods to protect, monitor, analyze, detect, 
and respond to unauthorized activity within MDA information systems. 
Cyber boundary protection measures include state-of-the-art firewalls, 
intrusion detection and prevention systems, and email spam/virus 
prevention capabilities. The Missile Defense Agency will continue to 
work closely with Federal agencies, industry partners, and others to 
identify and implement measures to further increase the security of 
missile defense information while continuously seeking to improve 
technologies and capabilities that protect MDA critical program 
information.
    I am proud to report we completed our first experiment with DOT&E 
in February. In the first experiment, MDA successfully demonstrated 
cybersecurity improvements that are in development. As a result of 
extensive interactions with a live cyber Operational Force during the 
first experiment, MDA will pursue new ways to strengthen cybersecurity 
that will be demonstrated in future experiments.
                               conclusion
    Mr. Chairman, we have stayed focused on our core mission. We will 
continue our work with the warfighter to develop, test, and field a 
networked, global BMD system that is flexible, survivable, and 
affordable and invest in promising and potentially game-changing 
technology programs to ensure the BMDS will be capable of defeating the 
complex threats we expect to face in the future. In order to ensure we 
are using the taxpayer's dollars wisely and deploying effective missile 
defense capabilities, we will continue to test elements of the system 
to demonstrate that they work before we commit to their fielding. It is 
vital that we provide the warfighters the cost-effective and reliable 
weapon systems they need to do their job. I remain dedicated to 
committing the manpower and resources to correcting the issues in our 
GMD program, executing a successful intercept flight test this summer, 
and keeping the focus on reliability in our operational homeland 
defenses. We continue to make good progress in our work with our 
international partners, and I want to increase my focus on those 
important efforts.
    I look forward to answering the committee's questions. Thank you.

                   BALLISTIC MISSILE DEFENSE TESTING

    Senator Durbin. Admiral, later this month, as you 
mentioned, you will attempt a GMD intercept flight test. 
Essentially, it's a do-over of the two flight test failures of 
the air 2010.
    You stated repeatedly that a successful intercept is a 
prerequisite before purchasing any additional Ground-Based 
Interceptors. I'd like to ask you two questions.
    The first question: You and I met yesterday and you noted 
that the whole world will be watching this test not just 
friends of the United States but even our enemies. First, how 
realistic will this test be? What kind of circumstances have 
been built into this to give an advantage to the interceptor? 
How will this stack up against a real attack on the United 
States; this particular test circumstance?
    The second question: If, unfortunately, there is a bad test 
result, what then will you have to say about the future of this 
program?
    Admiral Syring. Sir, the answer to the first question in 
terms of operationally realistic scenario, it is very 
operational and realistic in terms of a threat that we may face 
from North Korea. Now, there are a range of limitations, 
obviously, in terms of our ability to test across the entire 
Pacific Ocean, but we are testing at thousands of kilometers at 
very high intercept velocities. Very, very similar to what we 
would experience with the threat ICBM (Intercontinental 
Ballistic Missile) from North Korea. I think Dr. Gilmore would 
validate that.
    In addition, we do, as we have the last couple of tests, 
plan countermeasure which would be part of an expected scene 
from a threat from North Korea, as well. So we've seen good 
performance in terms of what the system saw in the last test 
with the same sort of countermeasure package and I'm confident 
that this test will demonstrate the same. So I would say it is 
very operationally realistic.
    Now, as you and I have discussed, there are necessary 
scripted parts of the scenario that we must conduct for safety 
reasons and for range limitations that are part of not just 
this test but every test that I do with Aegis and that as well.
    The second part of your question, Mr. Chairman, is on what 
happens if we fail. I believe it is, if I can paraphrase. And 
the response would be we would, like every test, we would find 
out, first, what failed. There's many parts of the system that 
could fail that are part of a successful intercept test. It's 
just not the GBI or the Kill Vehicle. So we would go through a 
very rigorous, very thorough failure review board process.
    If it turned out to be something very simple in terms of 
maybe the wrong weapon task plan that was transmitted to the 
interceptor from the radar or some issue that we haven't seen 
before, we would quickly find out what happened, correct, and 
try to get back to flight as soon as possible. If it was 
another Kill Vehicle problem, which would now make us 0 for 3 
on this design, I think you would see us take a step back and 
assess taking delivery of the EKVs that we're planning to take 
delivery upon a successful flight test.
    Senator Durbin. Admiral, the GAO (Government Accountability 
Office) tells us that the cost of demonstrating and fixing the 
GBI is about $1.3 billion. This includes flight test costs, 
failure review costs and retrofits. Have you been able to 
recoup any of these additional costs from the contractors as a 
consequence of performance? What actions are you planning on 
incorporating in future GBI procurement to protect the 
Government from having to cover unforeseen cost?

                               CONTRACTS

    Admiral Syring. Sir, the failure really goes across two 
contracts; an old contract and the new contract that was 
awarded. And there have been fee decrements in terms of award 
fee and incentive fee that the contractor has lost. Going 
forward, now entirely under the new contract, if there is a 
failure, say in the next test or the test after especially with 
the next version which is the CE-II block one, there are 
provisions in the contract for us to recoup paid fee; to go 
back retroactively and pull fee back. So I'm confident that has 
a good provision in it going forward.
    Senator Durbin. When you described the problems with the 
first two tests to me yesterday, they were a bit more technical 
than I'm familiar with in my capacity. But there appears to be 
a kind of breakdown in the actual mechanics. You talked about 
the vibration of a certain engine and the failure of another 
valve to close; if I remember correctly. Are those the types of 
things that, if they occur in the future, you would say to the 
contractor, ``You bear the responsibility for not producing 
what you promised.''
    Admiral Syring. Absolutely. Sir, yes, sir.
    Senator Durbin. And that would carry with it a financial 
burden on that contractor?
    Admiral Syring. Yes, sir.
    Senator Durbin. In the past, it's been difficult to 
distinguish the cost for acquiring the actual interceptor from 
other GMD program cost since interceptors were incrementally 
funded along with ongoing design and engineering. Can you tell 
us how much the 14 additional interceptors you're planning to 
procure in the future will cost?
    Admiral Syring. Sir, we, right now in the budget, we have 
roughly $75 million per interceptor starting in fiscal year 
2016 at a procurement rate of two per year.
    Senator Durbin. Can you assure the committee that before 
production of these missiles we'll have full cost data for each 
of these interceptors?
    Admiral Syring. Yes, sir.

                              AEGIS ASHORE

    Senator Durbin. Admiral, construction of the Aegis Ashore 
site in Romania concludes later this year and you're planning 
to follow that with construction of an Aegis Ashore site in 
Poland beginning in fiscal year 2016. Can you give us your 
outlook on how this is progressing and do you have sufficient 
military construction and procurement funding in your budget to 
fully execute Aegis Ashore in Romania and Poland?
    Admiral Syring. The answer to the second part of the 
question is yes, sir, 100 percent funded, on track for 
completion. The Poland request is for next year. The big 
request for Poland and the MilCon and all of those pre-
agreements and negotiations with host country are going very, 
very well. Romania is, as I said, is on track. I was there last 
week. We are actively managing that between myself and the Army 
corps of engineer head. I'm confident that that will deliver on 
its stated milestones.
    Senator Durbin. Admiral, the budget request includes $175 
million for the procurement of Iron Dome batteries and 
interceptors for Israel consistent with our Government's 
commitment to fund a $680 million requirement for the state of 
Israel by fiscal year 2015. The program has been very 
successful against rockets launched from Gaza toward Israel and 
was developed in field in record time. Can you give us an 
update on the production timeline for additional batteries and 
interceptors? And what role is there for U.S. industry to 
contribute to this program?

                         ISRAELI CO-PRODUCTION

    Admiral Syring. Sir, I'm very pleased, and I know you know 
this, that we've signed a coproduction agreement with Israel 
back in March which would give 30 percent of the stated Iron 
Dome production in the first year to the United States and 55 
percent in the second year. The request this year is for $175 
million. So there will be a significant amount of U.S. work 
share to help our Israeli partners produce and field the Iron 
Dome interceptors.
    I would defer on the number of batteries and the number of 
interceptors to a classified forum as they protect that 
information. But, with the coproduction agreement and with the 
ongoing contract negotiations that are going on between the 
U.S. company and the Israeli company, we will work through 
those details together to come up with the right cost, model, 
and the right overall price to the Government of Israel.
    Senator Durbin. Thank you, Admiral.
    Senator Shelby.
    Senator Shelby. Thank you.
    Admiral, on April 30, General Odierno testified before this 
very committee affirming, again, the importance of funding U.S. 
Missile Defense capabilities. This notwithstanding 
sequestration. The General stated then, and I'll quote him: 
``Our missile defense program and our ability to protect 
ourselves, is becoming more and more important as the Army 
continues to have over 50 percent of its ballistic missile 
defense capability deployed around the world.''
    Admiral, Senator Durbin rightfully questioned you just a 
few minutes ago about the implications of failure. And you're 
going to have failure from time-to-time in testing as you 
develop this, and there's nothing better than success in our 
performance. Let's assume that you're going to have a 
successful--you don't know what you're going to test coming up, 
but what are the implications of that and is there a ring to 
that around the world?
    Admiral Syring. Yes, sir.
    As you know, historically, sir, with the older Block of 
interceptors, we've been successful. We've tested three times 
successfully before the failure last July. The failure last 
July, I won't go into details in this forum, but it was very 
simple. And I'm confident that we've corrected that going back 
and that it's been accounted for going forward underscoring the 
need to test. And you know I testified last year saying that we 
can't go 3, 4, or 5 years between tests because the importance 
of what we learn is critical to the program and critical to the 
confidence of the warfighter. Upon success--if I can, sir?
    Senator Shelby. Go ahead.
    Admiral Syring. Upon success later this month, we would 
then take delivery on the next batch of interceptors that are 
ready to go. As you know, we've been on a delay and a lot of 
those have been put under contract but we, the Government, are 
not accepting them until the successful flight test. And upon 
that, we'll begin accepting those; we'll begin taking 
interceptors out of the ground to, now, put those improvements 
in the interceptors that are fielded; and then, the final step 
will be to complete what we call the CE-II Block 1 program, 
which is a rocket motor booster avionics upgrade that's 
absolutely necessary for OBSA lessons and that will comprise 
the next nine. So, by the end of 2017, we'll have a total of 47 
which will be 44 in the ground plus 3 spares.
    Senator Shelby. Admiral, the threat that North Korea poses 
to the Asia Pacific region and to the world, I believe, is 
real. In March, North Korea, you know this well but I'm just 
doing this for the record, North Korea tested a midrange Rodong 
missile, which has a range of over 600 miles. In light of this 
and other developments, South Korea has discussed a possibility 
of deploying a THAAD battery.
    What kind of threat in your judgment does North Korea pose 
in terms of mid and potential long range ballistic missile and 
what are the possibilities of deploying a THAAD battery to 
South Korea?

                              NORTH KOREA

    Admiral Syring. As I discussed with you, sir, the threat 
that North Korea poses to South Korea is very real. And they've 
demonstrated, through flight testing, a capability that 
threatens that country. And they paraded longer range missiles 
around--North Korea has paraded longer range missiles around 
their country on annual provocation cycles that are concerning, 
to say the least, to myself and--Admiral Locklear.
    Senator Shelby. Admiral, again, during your testimony 
before the Senate Armed Services committee in April of this 
year, you warned against the ballistic missile threat stating 
then, these are your words: ``Our potential adversaries are 
acquiring a greater number of ballistic missiles. Increasing 
their range and making them more complex, viable, reliable and 
accurate.''

                 MISSILE AND SPACE INTELLIGENCE CENTER

    And we're all troubled by the proliferation here. I'm 
encouraged sometimes by the important work that the Missile and 
Space Intelligence Center does to combat this threat. Could you 
discuss here in this hearing or would it take a classified 
hearing on MDA of the Missile and Space Intelligence Center's 
work and what opportunities do you see for greater cooperation 
in the future?
    Admiral Syring. Sir, they're a key component and a key 
partner in our development efforts. Everything that we develop 
and improve is based on their intelligence assessments. And 
we've also done a lot of work with them in other areas that are 
classified that I look to continue in the future.
    Senator Shelby. Admiral, the Missile Defense Agency and the 
Navy, together, successfully completed their first flight test 
of the Aegis Ashore system component less than a month ago, on 
May 21. During the flight test, the Aegis weapons system 
effectively targeted a simulated ballistic missile threat with 
a Standard Missile SM-3 Block 1B (SM-3 1B) guided missile. What 
do you see is the future role of the SM-3 Block 1B guided 
missile? Can you talk about that here?
    Admiral Syring. Yes, sir.
    That will be the--the SM-3 1B will be the workhorse for the 
Aegis BMD fleet going forward. We'll go through the FYDP 
(Fiscal Years Defense Plan) to procure over 300, close to 400, 
of these missiles before fiscal year 2019. They'll be loaded 
out on the, today, 30 BMD capable ships going to 43 by the end 
of the FYDP. SM-3 1B will be the cornerstone and the 
interceptor that we field in Romania in 2015. It is the 
workhorse for the fleet around the world.

                               IRON DOME

    Senator Shelby. Just for the record, Senator Durbin asked 
you some questions about the cost and production, everything, 
about the Iron Dome. Just for the record, tell us about the 
Iron Dome and we know--a lot of us know about it. You know more 
than anybody. How important is that in the future and should we 
spend that money?
    Admiral Syring. The----
    Senator Shelby. In your judgment.
    Admiral Syring. Yes, sir.
    I've been to Israel. I've seen the real threat that they 
face. I've stood on the Hill. I've talked to the folks. I've 
talked to kids in Israel who are concerned every day of the 
threat they face; the schools and the shelters that they must 
run to upon attack is nothing that we face in this country.
    The Iron Dome system is incredibly effective. I won't say, 
you know, there's different views on the, you know, the 
percentage of intercepts. But that's based on what they 
actually try to intercept versus what is not a threat to the 
population. And when it needs to intercept, it does. And it's 
proven very, very effective.
    In terms of application for our use, I would defer that 
question, sir, more to the Army and their development of a 
requirement for it. They certainly are deploying and are all in 
on PATRIOT and the PATRIOT upgrade and then the future of that, 
as well.
    Senator Shelby. Admiral, in your judgment, do you believe 
that the Defense capability against missiles, defensive 
posture, has grown in recent years faster than the offensive 
missile capability, or is it a standoff?
    Admiral Syring. I would answer that in two ways, sir.
    Senator Shelby. Okay.

                    BALLISTIC MISSILE DEFENSE THREAT

    Admiral Syring. We certainly are ahead of where the longer 
range threat maturity is in terms of the field that GBI 
interceptors. And we've worked to stay ahead of the threat with 
Aegis and THAAD to make sure that not just in numbers but in 
capability they're able to counter the ever increasing 
complexity of the threat.
    We'll never be able to field a system that's going to 
intercept hundreds or thousands of ballistic missiles. Our 
purpose is to provide a first line of defense around the world 
and that's what we're designed to do.
    Senator Shelby. Mr. Chairman, would it be possible to 
consider a closed hearing with the Admiral because a lot of 
things we can't get into it in open session here but I think 
it's important----
    Senator Durbin. Of course. Let's talk about it at a 
mutually convenient time for that.
    Senator Shelby. Okay. Thank you.
    Senator Durbin. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Admiral, for your service and your leadership.

                           STANDARD MISSILE-3

    Senator Shelby made the point about the SM-3 and it's vital 
but, as we're looking at comparing numbers, it looks like this 
budget submission there's a reduction in the number of SM-3s 
you're buying. Is that a budget pressure, or a more efficient 
deployment, or what's the story?
    Admiral Syring. Sir, two issues that force the reduction in 
quantity. One, we were behind in terms of finishing the 
required testing for operational fielding which we were very 
successful with last year. There was an issue with one of the 
interceptors that we had to flush out and then a retest. So we 
were late in terms of the original plan.
    So in terms of putting missiles under contract, in August 
of last year we put 33 under contract and then I'm getting 
ready to award, this month, another 52. And then, you know, as 
you stated, 30 in next year. So really, in a period of about 18 
months we'll have awarded 115 missiles. That's a lot of work. 
And then I think you'll see us get back to 52 in the request 
next year, hopefully, under a multiyear authority. So I think 
we got it right.
    Senator Reed. Good, good.
    Let me ask a question with respect to Ground Missile 
Defense. In order to provide guidance and telemetry to the 
launch vehicle and the Kill Vehicle wraps, you need external 
sources; radars and other satellite, et cetera. How vulnerable, 
and you might want to take this for close session, are those 
external sources to cyber-attack so that someone contemplating 
a launch would first conduct a cyber-interruption of your 
guidance systems?
    Admiral Syring. Sir, we've looked at that and I'd like to 
take that to a classified session.
    Senator Reed. But it's a serious concern?
    Admiral Syring. Yes, sir.

                          AEGIS MODERNIZATION

    Senator Reed. With respect to the Aegis program, it is one 
of the most adaptable and critical to the defense not just of 
the United States but our allies. The total number of ships 
that you would like to see by fiscal year 2019 is 43 but the 
Navy, in their budget this year, are restricting the operating 
status was at least four of those Aegis ships. Are you 
anticipating a problem with availability of Aegis platforms in 
going forward?
    Admiral Syring. Sir, it's a good question.
    As you know, we're tied to the Navy and their modernization 
plans but we're also working with the Navy in terms of the, and 
not to get too technical here, but the 4.1 is the computer 
program. And that gives, you know, current Aegis ships like the 
Flight I's and II's significant BMD capability without going 
through a full modernization.
    So we're in support, we're driven in some cases by the 
numbers, but I'm confident that the 43 is good through 2019. I 
was just with the Navy last week.
    Senator Reed. But, of those, at least four of those ships 
will be, sort of, limited duty; if that's the right term. Even 
with that status, you're confident that you can call upon them 
when necessary?
    Admiral Syring. Yes, sir.
    Senator Reed. One of the issues here is that, and it's 
becoming increasingly important, is our cooperation with 
allies. And, you know, in the Pacific, the Japanese, they are 
very serious about cooperating, et cetera. Can you talk about 
the plans you have with respect to ballistic missile defense 
not only operationally but also in terms of research, 
development, coproduction, and that, you know, tough budget we 
could ask--we could get assistance?
    Admiral Syring. Yes, sir.

                         STANDARD MISSILE-3 2A

    The Japanese, our partners from Japan, have been very 
helpful and are equal partners on the SM-3 2A development and 
have stepped up to the plate in a big way in terms of carrying 
a lot of that load. And they're not only just great financial 
partners, they're great technical partners. I'm confident that 
missile is in a good place because of their partnership; one 
example.
    Senator Reed. Let me go back to the Ground Missile Defense 
program, and this is a question that's not rhetorical. Correct 
me if I'm wrong but the test vehicle, is it launched from one 
of the silo missiles that you have, the 44 missiles?
    Admiral Syring. It's launched from a test silo at 
Vandenberg.
    Senator Reed. At Vandenberg.
    So the actual force that's in the field now, we don't 
launch from those physical facilities?
    Admiral Syring. There's a silo at Vandenberg that's 
dedicated to test.
    Senator Reed. And do you have to compensate in terms of, 
you know, are we at the phase--I guess the question would be 
we've got 44 missiles in the ground, we never shot any of 
those----
    Admiral Syring. We'll have 44 in the ground by 2017.
    Senator Reed. 2017.
    Admiral Syring. Thirty, today.
    Senator Reed. Yes.

                   BALLISTIC MISSILE DEFENSE TESTING

    Admiral Syring. And, yes, we're limited to testing out of 
Vandenberg. We would never, and can't, test out of Fort Greely.
    Senator Reed. But there's got to be, at least, a small 
translation problem between a test range at Vandenberg and the 
actual--you're planning for that? Are you compensating for 
that? Are you----
    Admiral Syring. Yes, sir.
    What happens is, and I've described the limitations of the 
range, and it is shorter range, although it's still thousands 
of kilometers. We take the results of that test and we feed it 
back into our models and extrapolate for the entire range of 
intercept.
    Senator Reed. All right.
    Admiral Syring. Which gives us confidence.
    Senator Reed. You've made the point that, you know, even 
the most sophisticated defense system can't stop a barrage of 
hundreds of thousands of missiles but when will we get to the 
point where we're engaging multiple missiles coming at us? How 
many years away?

                                 THREAT

    Admiral Syring. I'll answer that in a classified session. I 
could talk about numbers and current shot doctrine but the 
request that we have in front of you is to greatly improve 
where we are today in terms of the number of interceptors that 
we fly at each threat.
    And the way we do that is, one, reliable EKV and 
interceptors, and two, the ability to discriminate at a very 
complex decoy scene which we see as the future. So you need to 
have high confidence in the reliability of the interceptor and 
be able to inform the interceptor what the correct target is in 
the debriefing. And both of those are critical too to 
countering more threats to the future.
    Senator Reed. And just to the question Senator Shelby 
alluded to, and I'll conclude because we'll do it in close 
session, is that there's a trajectory for offensive 
capabilities and there's a trajectory for defense capabilities. 
And one question is are we ahead or where do the lines cross? 
And that would be a valuable but I suspect you want to say that 
in close session.
    Admiral Syring. Yes, sir. I would. And I would like to do 
it with Admiral Winnefeld, as well, who thinks a lot about 
this.
    Senator Reed. Thank you, sir. Thank you, sir.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Admiral, welcome and thank you for your leadership.
    I want to follow on the questions that my colleague and 
friend from Rhode Island has been asking about this next 
scheduled test for the GMD test scheduled for the 22nd of this 
month. We have historically launched our target missiles from 
the Kodiak launch complex. In fact, there were eight launches 
between 2004 and 2010 and I'm told that the last successful 
intercept that we had of the GMD system was when we used the 
complex there at Kodiak.
    So the question for you this morning is given that this 
next test coming up in the end of June is going to be launched 
out of Kwajalein, the last 4 years, the tests have all come out 
of Kwajalein, what do you see as the future of the Kodiak 
complex? Are there plans to return to the complex for any 
launches? I would think and I guess, just looking at the map, I 
would think there would be cost savings, actually, that come 
from the Kodiak complex given that you're 2,000 miles past 
Hawaii there. Can you just speak to the Kodiak complex and 
where it fits in to the testing?
    Admiral Syring. Yes, ma'am.
    The Kodiak complex was very useful to us in the past. And I 
agree with your assessment. And it gets really back to the 
Chairman's question in terms of operationally realistic 
scenarios. In terms of a threat from North Korea coming to the 
United States is, in layman's terms, is head on. And that sort 
of geometry is very, very important to us. But geometry, 
perpendicular, if you will, to the threat access was useful 
early on. But the way we are progressing our tests is to be, 
again, more operationally realistic and move consistently up to 
higher intercept velocities and longer ranges; are the two 
areas we're concerned with.
    I'll be happy to come over and share with you our 
assessment at a classified session in terms of the plan testing 
and the limitations that Kodiak has with those tests.
    Senator Murkowski. Well, I would appreciate that level of 
discussion. Again, I think we recognize that we have had some 
good results out of Kodiak. There is clearly value. So it would 
be helpful for me to understand your perspective here.
    What is the annual testing requirement for the existing 
intercepts? And how do we maintain that the confidence in the 
reliability for these systems while we're working towards the 
redesign of the EKVs? How do you do this simultaneously?

                   BALLISTIC MISSILE DEFENSE TESTING

    Admiral Syring. The first part of your question: The annual 
test cost for a GMD intercept is about $200 million. That 
includes the cost of the interceptor, the cost of the target, 
and all of the support that goes into it. It's a huge national, 
sort of, level test.
    The point on how do you ensure reliability in terms of 
everything that's going on with the redesign and everything 
that is happening in the current program or record actually is 
confidence in reliability and component testing and modeling of 
the components to ensure that we understand where the weak 
links are in the design, and work to improve those, is one way. 
And, as we return to 44, you'll see, I think, a renewed 
emphasis and focus in the program on that very issue.
    Senator Murkowski. The recommendation for the GMD testing 
here, coming out of the various committees here in the Senate, 
have recommended additional funding for maintenance and 
reliability upgrades that are not included in your fiscal year 
2015 budget request. It appears, looking at what the various 
committees have advanced, that the amount needed to address the 
maintenance and the reliability concerns is in the range of $30 
million to $50 million. Based on your assessment of what needs 
to happen with the maintenance and the reliability 
requirements, how much additional funding do you actually think 
you need in the fiscal year 2015 to make sure that we are to 
that point; that we can ascertain that we have what we need for 
the maintenance and the reliability?
    Admiral Syring. I would answer it in two ways, ma'am.
    Inwardly, within the agency, there's amounts that can be 
made available through below-threshold reprogramming in fiscal 
year 2014 and we're certainly actively pursuing that within my 
authority. The other part would be to work through the 
Department on a request above the budget request and to gain 
acceptance and really concurrence on the needed and necessary 
improvements in the program. And I'm working that today with 
the Department.
    Senator Murkowski. Okay.
    Well, Mr. Chairman, I requested an additional $250 million 
in the appropriations request that I had advanced for 
additional GMD upgrades. You know, certainly that's higher than 
we're talking about here. And I recognize, given the budget 
environment, certainly willing to work to scale that back but I 
do think that it is necessary to work to maintain the 
reliability of this system. So, as we look to determine what 
that right number is, I would hope that we would have good 
discussion on that.
    And then, last, Admiral, I want to ask you about the Long 
Range Discrimination Radar. We follow pretty closely, in 
Alaska, what is going on with missile defense and take the role 
that we have as a state, where we are host to the GMD system 
there at Greely, very seriously. I have been encouraged by what 
we're seeing coming out of the development of the Long Range 
Discrimination Radar (LRDR) and the fielding schedule that 
we're looking at and having it operational within Alaska, 
within this next decade.
    I was somewhat troubled to see that on the House side they 
have struck out your fiscal year 2015 request for the LRDR 
planning. So I would like for you to describe not only what the 
capabilities that LRDR brings to the missile defense system but 
also to the basing aspect of it. I think, or at least I've been 
told pretty consistently, that this will be based in Alaska. 
There's some discussion as to where it might be and how the 
siting will impact the effectiveness of that. So if you can 
speak to the LRDR system?
    Admiral Syring. Yes, ma'am, and I'll keep it short.

                    LONG RANGE DISCRIMINATION RADAR

    But there are eight active trade studies that we're 
conducting within MDA and with the warfighter to answer those 
exact question in terms of where is the best placement of the 
radar; what is the right frequency of the radar; what is the 
right power of the radar to meet what we project to be the 
threat in 2020.
    The importance of the radar is that it provides us that 
needed discrimination capability against the threat from North 
Korea. As they continue to progress and add decoys and 
countermeasures, and I'll stop there in terms of 
classification, we must have a discrimination capability of a 
radar to counter that to keep our shot doctrine manageable and 
to defeat raid sizes of more than one. And I view it in 
conjunction with the EKV redesign that I've asked for in this 
budget, as well. That's the two most critical components, the 
GMD program, going forward in addition to the needed 
reliability improvements; absolutely vital.
    Senator Murkowski. You mentioned that you are doing the 
assessment, the analysis, there for this siting. Do you have 
any idea as to when those decisions might be made and, more 
importantly, made public?
    Admiral Syring. Yes, ma'am.
    Over the course of the summer, I'm on a very aggressive 
timeline to award this radar in fiscal year 2015 to meet the 
fiscal year 2020 capability, which I view as critical. I would 
take it for the record, but it'll be over the next several 
months, ma'am, and we'll be sure to come over and see you.
    [The information follows:]

    The Missile Defense Agency is working with the Warfighters to 
finalize the Long Range Discrimination Radar site selection. The 
selection will be made public when the final request for proposal is 
released this fall.

    Senator Murkowski. Okay.
    Thank you, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Thank you very much, Senator Murkowski.
    Admiral, thank you for your testimony today. We're looking 
forward to the results of your test in just a few weeks.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Daniel Coats
    Question. The Canadian Senate is currently reviewing Canada's 
missile defense policy and its lack of interest to participate in U.S. 
homeland missile defense. While we understand that the decision is 
ultimately Canada's, could you please explain potential benefits of 
Canadian participation in U.S. missile defense efforts?
    Answer. Until formal government-to-government discussions on 
ballistic missile defense (BMD) participation between the U.S. and 
Canada occur, and the Canadian Government makes a policy decision on 
its intent to participate in BMD activities and the extent of that 
participation, it is premature to discuss any capabilities or potential 
benefits of Canadian participation in U.S. BMD efforts.
    Question. Could you please describe the benefits that an East Coast 
missile defense system would give you, both in terms of tracking and 
capabilities, should a land based Aegis site be deployed?
    Answer. [Deleted].
    Question. Given Russia's recent aggressive actions in Ukraine, 
could the U.S. speed up the construction of land-based missile defense 
sites in Poland and Romania? What additional resources would be 
required to do so?
    Answer. The Missile Defense Agency (MDA) is on schedule to deliver 
Aegis Ashore (AA) to Romania in 2015 and Poland in 2018 to support 
European Phased Adaptive Approach Phases II and III. It would be costly 
if the Department of Defense (DOD) decides to accelerate deployment of 
these systems. Acceleration would not include the more capable Standard 
Missile (SM)-3 Block IIA guided missile, and there are other associated 
risks.
    With regard to Romania, construction began at the AA Romania site 
in October 2013. No opportunities exist to accelerate the schedule on 
the ongoing military construction (MILCON) project due to procurement 
schedules of long-lead items.
    By increasing shift work, we could accelerate Aegis Ballistic 
Missile Defense (BMD) weapon system (AWS) installation, integration, 
and testing by approximately 2 months with additional research, 
development, test and evaluation (RDT&E) funding. Any acceleration to 
the Navy's integration, testing and manning schedule and plans must be 
determined by the Office of the Chief of Naval Operations.
    With regard to Poland, there are two options to accelerate 
deployment of AA Poland:
Option 1. Acceleration of AA Poland by 9 Months
    Shorten MILCON contract acquisition time by awarding a negotiated 
sole source contract:
  --May result in a higher negotiated cost requiring more MILCON 
        funding.
  --Coordination with United States (U.S.) Army Corps of Engineers 
        (USACE) as the DOD construction agent is required to revise 
        acquisition strategy and obtain sole source approval.
  --Current AA host nation-Poland (HN-PL) AWS equipment contract 
        delivery date supports this option.
Option 2. Acceleration of AA Poland by 18 Months
    Requires MILCON authority and funding availability in the fiscal 
year 2015 budget:
  --May result in a higher negotiated bid requiring more MILCON 
        funding.
  --Contracting acceleration; issue a sole source design-build 
        contract.
  --Requires coordination with USACE as the DOD construction agent to 
        revise acquisition strategy and obtain sole source approval.
    Requires more RDT&E funds due to an accelerated schedule requiring 
complex premium shift work and additional equipment. Includes 
specialized material handling equipment during site activation, 
installation and checkout, and transition and transfer leading to 
initial operational capability.
    Requires AWS equipment swap with Navy, coordinated with Navy 
Program Executive Officer, Integrated Weapon System (PEO IWS), and must 
be authorized by Congress:
  --Maintains current AA HN-PL AWS equipment contract delivery date.
  --AWS ship set accelerated delivery does not require modification of 
        funding.
  --Margin exists in AWS delivery where both options support 
        operational capability.
    The accelerated AA system will be able to launch SM-3 Blocks IA and 
IB guided missiles. The Aegis BMD 5.1 weapon system (required to launch 
the IIA missile) and SM-3 Block IIA missile will not be available 
earlier than 2018. However, compliance with section 223 of the National 
Defense Authorization Act for fiscal year 2011 (Public Law 111-383) 
requires us to not procure other than long-lead, or deploy operational 
missiles on European land until operationally realistic testing of the 
interceptor and system are certified to Congress.
    The MDA can only address costs and programmatic impacts of MDA 
responsible efforts. A more complete response requires coordination 
with the Navy and other organizations to more fully reflect Department 
costs, operational impacts, and national security policy implications.
    Note: The MDA delivers all SM-3 missiles to U.S. Fleet Forces 
Command (USFF) for allocation to combatant commanders. USFF determines 
the mix of variants deployed to ships and ashore based on ballistic 
missile defense requirements through the Global Force Management 
process. Deploying SM-3 interceptors to Poland before delivery of the 
SM-3 Block IIA in 2018 would reduce the availability of SM-3 Block IB 
guided missiles.
    Question. In what timeframe should we expect North Korea to develop 
multiple warhead technology? If this is a conceivable threat, what 
response is proposed by the U.S. Missile Defense Agency?
    Answer. [Delete].
    Question. The latest congressionally mandated Department of Defense 
report on China's military modernization for the first time mentions 
that China is developing a new ICBM called the DF-41 that may have 
multiple warheads. What is your estimate for how many Brigades of the 
DF-41 that China may eventually deploy and what new threat does this 
missile pose to the security of the United States?
    Answer. This question requires an intelligence assessment to 
answer. The Missile Defense Agency respectfully defers to the DOD 
intelligence community.
    Question. Both Russia and China are now in the process of 
developing and soon, perhaps deploying new multiple warhead-armed 
ICBMs. Is it time for the Missile Defense Agency to revisit the 
development of a missile defense interceptor that can defend against 
multiple incoming warheads?
    Answer. As specified in both the Ballistic Missile Defense Review 
signed by the Secretary of Defense in 2010 as well as the Presidential 
Policy Directive on U.S. Ballistic Missile Defense signed by the 
President in 2011, it is the policy of the United States that the U.S. 
Ballistic Missile Defense System is not intended to threaten the 
strategic balance with either the Russian Federation or the People's 
Republic of China. As currently designed and deployed, the Ground-based 
Midcourse Defense system is directed toward the projected limited long-
range ballistic missile threats emanating from North Korea and Iran. 
The Missile Defense Agency is continually assessing improvements in our 
missile defense capabilities to address the evolving threat.
    Question. According to reports citing U.S. Defense Department 
sources, China earlier this year tested a Hypersonic Glide Vehicle 
(HGV) warhead. What new threat would a HGV pose to U.S. forces and does 
the Missile Defense Agency have the means to protect U.S. forces from 
HGVs? What new capabilities would be required to defend against HGVs?
    Answer. [Delete].
    Question. China is developing and may soon deploy a new class of 
Intermediate Range Ballistic Missiles (IRBMs), with one identified as 
the ``DF-26.'' Does the Missile Defense Agency have the means to defend 
U.S. forces from IRBMs?
    Answer. [Delete].
    Question. China is estimated to have amassed up to 1,400 ballistic 
and cruise missiles against the Taiwan. Given the volume of this 
threat, is it advisable for allies and friends facing this level of 
threat to seek a more economical form of missile defense, such as the 
Rail Gun? When could Rail Gun technology be developed in order to offer 
allies and friends a defense against massive missile threats? Does the 
Missile Defense Agency support any ongoing Rail Gun related programs 
that could defend against massive short range ballistic missile 
threats?
    Answer. As specified in both the Ballistic Missile Defense Review 
signed by the Secretary of Defense in 2010 and the Presidential Policy 
Directive on U.S. Ballistic Missile Defense signed by the President in 
2011, it is the policy of the United States that the U.S. Ballistic 
Missile Defense System is not intended to threaten the strategic 
balance with either the Russian Federation or the People's Republic of 
China. The Missile Defense Agency (MDA) is working closely with the 
Office of the Secretary of Defense Strategic Capabilities Office (SCO) 
and the Office of Naval Research to assess the feasibility of the rail 
gun for ballistic missile defense.
    Regarding the question, ``When could Rail Gun technology be 
developed in order to offer allies and friends a defense against 
massive missile threats?'' this question is better addressed by the 
Office of Naval Research, since this a Navy program.
    The MDA does support ongoing rail gun related programs that could 
defend against massive short-range ballistic missile threats. We have 
been working closely with the SCO and the Office of Naval Research, and 
are supporting electromagnetic rail gun (EMRG) as follows:
  --Identifying and assessing fire control sensor options and 
        continuing to participate in sensor trade studies.
  --Helping to assess propagation effects, accuracy and guidance law 
        analysis.
  --Assisting with Ballistic Missile Defense (BMD) target 
        identification and integrated testing expertise.
  --Providing systems engineering expertise, threat and scenario 
        identification, and cost estimating support to evaluate the 
        utility of this weapon for BMD.
  --Assessing Ballistic Missile Defense System (BMDS) and Integrated 
        Air and Missile Defense (IAMD) integration requirements.
  --Assessing potential role for EMRG in BMDS and IAMD architectures.
    A significant systems engineering effort would be the next step in 
assessing the value of this technology for defense against ballistic 
missile threats.

                          SUBCOMMITTEE RECESS

    Senator Durbin. I will tell the members of the subcommittee 
that we're going to reconvene on Wednesday, June 18, at 10 a.m. 
to receive testimony from the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff.
    At this time, the subcommittee is going to stand in recess.
    Thanks, Admiral.
    [Whereupon, at 10:56 a.m., Wednesday, June 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
June 18, 2014.]
</pre></body></html>
